SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8000
VSEITZ@SID LEY.C OM
AMERICA • ASIA PACIFIC

• EUROPE

CERTIFICATE OF SERVICE
No. 20Antonio Dewayne Hooks,
v.

Petitioner

Kayodi Atoki, Bethany Police Department, et al.,
Respondents.
I, Virginia A. Seitz, do hereby certify that, on this 3rd day of March, 2021, I
caused one copy and an electronic copy of the petition for a writ of certiorari in the
foregoing case to be served by first class mail, postage prepaid, on the following
parties:
CARSON C. SMITH
H ENDRICKSON BAYSINGER &
GREEN, L.L.P,
1199 N. Francis
Oklahoma City, OK 73106
csmith@piercecouch.com

AUSTIN J. YOUNG
JOHNSON H ANAN VOSLER
H AWTHORNE & SNIDER
9801 N. Broadway Ext.
Oklahoma City, OK 73114
ayoung@johnsonhanan.com

RODNEY J. H EGGY
OKLAHOMA COUNTY
DISTRICT ATTORNEY’S
OFFICE
320 Robert S. Kerr Ave #505
Oklahoma City, OK 73102
rod.heggy@oklahomacounty.
org

Counsel for Chris Harding &
James Irby in their
Individual
and
official
capacity as Bethany Police
Officers

Counsel for Armor
Counsel for Kayode Atoki
Correctional Health Services, and Sheriff John Whetsel
Inc. and Jerry Childs, Jr.,
D.O.

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

Page 2
/s/ Virginia A. Seitz
VIRGINIA A. SEITZ
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
vseitz@sidley.com

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

